                                                    SENSITIVE BUT UNCLASSIFIED


    f
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                   Inspection of
                                            Embassy Gaborone, Botswana

                                              Report Number ISP-I-11-43A, June 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.


                                               i
                                  SENSITIVE BUT UNCLASSIFIED
                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

This inspection was conducted in accordance with the Quality Standards for Inspections, as
issued by the President’s Council on Integrity and Efficiency, and the Inspector’s Handbook, as
issued by the Office of Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                           SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                            1
Context                                                  2
Executive Direction                                      3
   Leadership                                            3
   Mission Strategic and Resource Plan                   4
   President’s Emergency Plan for AIDS Relief            4
   Regional Strategy                                     4
   Morale                                                4
   Entry-Level Program                                   5
Policy and Program Implementation                        6
   President’s Emergency Fund for AIDS Relief            6
   Political and other Policy Programs                   8
   Public Affairs Section                               10
   Consular Affairs                                     15
Resource Management                                     17
   General Management                                   18
   Financial Management Office                          18
   Human Resources                                      20
   General Services                                     21
   Facilities Management                                25
   Information Management                               26
   Information Security                                 29
Quality of Life                                         30
   Community Liaison Office                             30
   Health Unit                                          30
   Recreational Facilities                              31
   Schools                                              31
   Equal Employment Opportunity                         31
Management Controls                                     33
List of Recommendations                                 36
Informal Recommendations                                39
Principal Officials                                     42
Abbreviations                                           43




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   Embassy Gaborone works well as a team, with strong cooperation among individual
       sections and the seven agencies represented in Gaborone. The Ambassador and deputy
       chief of mission (DCM) keep the mission focused on priority issues and regularly
       monitor progress toward the goals defined in the Mission Strategic and Resource Plan
       (MSRP).

   •   The inspection took place shortly after a fraud ring was uncovered in the office of the
       Centers for Disease Control and Prevention (CDC) that led to the dismissal of 12 CDC
       local employees involved in handling CDC operating funds. The embassy provided
       immediate assistance in investigating the case and later agreed to take responsibility for
       several management functions previously handled by CDC. The result increases embassy
       workload but should help CDC manage its funds more effectively and guard against
       further fraud.

   •   The President’s Emergency Plan for AIDS Relief (PEPFAR) is the largest U.S. health-
       assistance program in Botswana. At the time of the inspection, there was no evidence that
       PEPFAR funds were involved in the fraud case. While the PEPFAR program is marked
       by solid accomplishments, clear strategic vision, and uncommon interagency cooperation,
       more attention should be paid to program monitoring and oversight.

   • (b)(5)(b)(6)



   •   The public affairs officer (PAO) has brought a new sense of direction to his section and,
       via the strategic communications working group he chairs, has improved coordination
       with the rest of the mission. His next focus should be attention to the section’s move to its
       new offices.

   •   Embassy staff has grown in recent years, and some offices are overcrowded. The pending
       move of the public affairs section (PAS) to rented commercial space will relieve much of
       the overcrowding, but embassy management will need to take a disciplined approach to
       requests for additional staffing to avoid a recurrence of the overcrowding problem.

The inspection took place in Washington, DC, between January 3 and 29, 2011, and in
Gaborone, Botswana, between February 1 and 14, 2011. (b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
         Botswana is a democratic, relatively prosperous country that plays an active role in
regional affairs. The 15-country Southern Africa Development Community (SADC) is
headquartered in the capital of Gaborone and serves to enhance the country’s regional influence.
It also adds a regional component to the embassy’s portfolio. The Ambassador is accredited to
both Botswana and SADC.

        U.S. interests in Botswana revolve primarily around programs to assist the country
address a devastating HIV/AIDS epidemic that has seen one in four adults infected with the
disease. Since 2003, the United States has provided more than $500 million in health assistance
to Botswana through PEPFAR. At the time of the inspection, 55 percent of the embassy’s work
force was directly involved in PEPFAR or other health programs. An important aspect of the
inspection was to evaluate how well the PEPFAR program is operating.

        The embassy also oversees modest military assistance programs and supports the
International Law Enforcement Academy outside Gaborone, where law enforcement authorities
from 29 African countries receive training in a range of police functions.

        In addition to the Department of State (Department), seven U.S. Government agencies
are present in Botswana: CDC, the U.S. Agency for International Development (USAID), the
Department of Defense, Peace Corps, Department of Homeland Security, Department of the
Treasury, and the International Broadcasting Bureau. The Department and CDC have the largest
presence.

        U.S. private investment is modest and is concentrated in the diamond industry. Botswana
is the world’s largest diamond exporter, and mining accounts for 40 percent of its economy.
Tourism also plays an important economic role, and several thousand U.S. tourists visit the
country’s magnificent nature reserves every year.

       Embassy operations are run from several locations. Most staff is located in the embassy
in Gaborone, which has become overcrowded as staff has grown in recent years. Plans are under
way to move the PAS to rented quarters in a commercial center that is a 5-minute drive from the
embassy. Once completed, the move should significantly reduce overcrowding. PEPFAR and
other health programs operate from a Ministry of Health building about 1 mile from the embassy.
The Peace Corps also operates from a separate location in Gaborone. Two U.S. employees are
based at the International Law Enforcement Academy. The International Broadcasting Bureau
maintains a transmitting station in a remote location that is a 4-hour drive from Gaborone.

        At the time of the inspection, the Embassy had 59 U.S. direct-hire positions, 9 U.S. local-
hire staff, and 360 local employees.




                                           2
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Executive Direction
Leadership

        Botswana has traditionally been a low-visibility, friendly partner to the United States.
The embassy is encouraging Botswana to play a more assertive leadership role in the region. The
Ambassador is an experienced Africa hand who has been in country for more than 2 years and is
therefore well equipped to encourage the Government of Botswana to assume this broader role.
The Ambassador is active and engaged both in the mission and in important government and
business circles. His energy and commitment have earned him access to and respect in the local
community and high regard from the vast majority of mission staff members.

        The DCM has strong leadership skills, with a personality and work style that complement
those of the Ambassador. Together, they constitute a strong leadership team that knows their
embassy inside and out, from large PEPFAR and International Law Enforcement Academy
programs to the issues that affect the local mission staff. They have not shied from addressing
difficult and time-consuming management and quality-of-life issues, one of the most notable
being the move of PAS to relieve overcrowding and facilitate public access. They have fostered a
high level of cooperation among sections and agencies.

        The Ambassador and DCM are supportive of the regional security office’s program in
this high-crime-threat country. As detailed in the classified annex, the residential security
program is excellent.

       The embassy has an Equal Employment Opportunity (EEO) program with an EEO
counselor and two local staff liaisons. There have been no EEO cases during the tenure of the
Ambassador and DCM.

Interagency Cooperation

        Embassy operations are marked by strong interagency cooperation on PEPFAR and other
programs. In 2 weeks at Embassy Gaborone, the inspection team saw numerous examples. The
regional security office works closely with the Peace Corps. The International Law Enforcement
Academy supports political goals by offering antitrafficking courses. Reporting officers in the
political section share information freely with Department of Defense colleagues. All sections
and agencies work with PAS to identify opportunities to reach the public with positive messages.

         The embassy provided immediate support to CDC when a fraud ring was uncovered there
in late 2010. Initial estimates put losses at some $2 million in CDC operating funds, none of
them associated with the PEPFAR program managed by the Department. As part of that support,
the assistant regional security officer conducted multiple interviews with suspect employees and
prepared reports that led to 12 dismissals. With executive office concurrence, the embassy took
over several functions, including warehousing and cashiering, which had been previously
managed by CDC itself. Both the Ambassador and the DCM worked with the CDC country
director to address morale issues arising from the investigation. CDC officials in Atlanta and
Gaborone expressed appreciation for the embassy’s assistance.

                                          3
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Mission Strategic and Resource Plan

         The Ambassador and DCM undertook a complete review of mission operations,
activities, and priorities, producing a FY 2012 MSRP rated among the top three best in the
world. The MSRP reprioritized health as the number one goal, which reflects the scale and
importance of PEPFAR assistance, now at $84 million annually. The MSRP also called for
greater efforts to deliver on Botswana’s potential to make a regional impact that is favorable to
U.S. interests, and it made a priority of reaching out to new audiences through a reinvigorated
public outreach strategy. The full country team participated in the revision effort, and all country
team members reported familiarity with and acceptance of the embassy’s MSRP goals.

President’s Emergency Plan for AIDS Relief

        The Ambassador and DCM focus considerable attention on PEPFAR and other health
programs, which account for 55 percent of embassy staff and nearly all U.S. financial assistance.
Both participate in PEPFAR strategy sessions and are fully familiar with the program’s goals,
resources, and personnel. Both worked with the PEPFAR team to draft and win approval of a
bilateral partnership framework that creates a roadmap for PEPFAR’s next phase, shifting focus
to long-term sustainability and country ownership of the program. In light of this eventual shift
in the ownership and management of PEPFAR’s programs, it is important that that the
Ambassador require PEPFAR leadership to review its staffing pattern as its priorities change.

Regional Strategy

        The DCM, in conjunction with the U.S. mission in South Africa, drafted an innovative
SADC regional strategy to revitalize the potential of this largely ineffective body. The strategy is
intended to increase coordination among U.S. bilateral missions in the region on crosscutting
issues of regional concern, such as agriculture and trade. The focus is to influence SADC
through regional capitals, rather than through its organizational representatives, in order to
achieve quick and effective results that are favorable to U.S. priorities. The draft strategy reflects
Secretary Clinton’s Quadrennial Diplomacy and Development Review, and the Ambassador has
orchestrated briefings for the region’s chiefs of mission and the leadership of the Bureau of
African Affairs. The Ambassador also has been active in finding ways to reconcile U.S. policy
toward Zimbabwe with efforts to expand engagement with SADC, of which Zimbabwe is a
prominent member.

Morale

        Locally employed staff concerns about position grades, salaries, benefits, training, and
relations between them and the U.S. direct-hire staff affect morale overall. Embassy leadership
has established a broad and creative program to improve morale among local staff. The simple
creation of a suggestion box has proved to be an effective tool in giving local employees a new
voice in the embassy community. Many local staff pointed out that the DCM will respond to
suggestions even if he cannot make the requested change, explaining why the suggestion cannot
be implemented. Similarly, local employees at all levels laud the DCM’s open door policy and
the access it provides.

                                            4
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       (b)(5)(b)(6)




     These efforts, coupled with multiple community events, many funded personally by the
Ambassador and DCM, have improved morale among the mission’s employees.

Entry-Level Program

         When the embassy’s entry-level officer (ELO) population expanded significantly in the
summer of 2010, the Ambassador and DCM began to shape an ELO mentoring and development
program, with input from the ELOs themselves. The program was formalized in January 2011
and is designed primarily to enhance ELOs’ understanding of the workings of a mid-size
mission, expose them to opportunities beyond their work requirements to enrich their
professional experience, and emphasize the Department’s Career Development Plan. The
embassy’s program encompasses both generalists and specialists who are on their first or second
tour. It is too early to assess the success of the program, but its careful structuring, the strong
commitment of the Ambassador and DCM, and the enthusiasm of the intended beneficiaries all
auger well.




                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
President’s Emergency Fund for AIDS Relief

        PEPFAR and other health-related programs dominate the embassy’s goals, staffing, and
resources. Helping the Government of Botswana to address the country’s crippling HIV/AIDS
epidemic—one in four adults is infected—is is the top priority in the MSRP. Counting direct-
hires and local staff, some 55 percent of the embassy works directly on health related projects—
about half on PEPFAR and half on other CDC programs. Simple budget comparisons make clear
that U.S. priorities in Botswana are humanitarian: PEPFAR’s 2010 budget was $87 million;
funds allocated for military assistance that year totaled $970,000. PEPFAR’s large staff—116
employees authorized in 2011—is located in a donated Ministry of Health facility, about a mile
from the chancery, so the PEPFAR contingent does not contribute to overcrowding at the
mission.

         As noted above, the inspection took place shortly after investigators uncovered a fraud
ring at the local CDC office that resulted in the dismissal of 12 local staff. At the time of the
inspection there was no evidence the fraud involved PEPFAR funds.

Coordination and Programming

         The PEPFAR program in Botswana is led by an able and widely respected coordinator.
Executive office support and participation have been consistently strong. Both the Ambassador
and DCM have worked with the coordinator and his staff to shape a coherent strategy that shifts
priorities from delivering emergency assistance to providing Botswana with the infrastructure
and expertise to take on increasing HIV/AIDS responsibilities. The program’s watchword is
sustainability, in line with Washington guidance. One area that has not received sufficient
attention is monitoring and oversight; this issue is discussed below.

       The program involves four U.S. Government agencies, in addition to the Department.
The two largest are CDC, which receives some 70 percent of the program’s annual budget, and
USAID, which receives management support from the USAID regional office in Pretoria. The
Peace Corps fields about 100 volunteers, half of whom are supported by PEPFAR funds, and all
of whom are involved in HIV/AIDS work. Twenty percent of the volunteers are over 50 years of
age, compared to 7 percent worldwide, reflecting an effort to assign experienced health
professionals and managers to the Botswana program. The Department of Defense funds
programs to combat HIV/AIDs in the Botswana Defense Force.

         Cooperation between CDC and USAID in the Botswana PEPFAR program is excellent.
Much of this cooperation stems from the strong leadership of the PEPFAR coordinator, who has
put in place a series of weekly meetings that bring together staff at all levels and has assigned
staff from different agencies to cochair working groups. A major strategic review conducted in
the summer of 2010 involved all agencies, had regular executive office participation, and
resulted in program changes designed to transition programs to the Government of Botswana, in
line with current and anticipated PEPFAR resources. Two senior staff members said it was the
best run strategic review they had ever seen. The coordinator, whose background is in project

                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

management rather than public health, focuses primarily on strategy and coordination. Decisions
involving public health practices are generally left to experts at CDC and USAID. The system
has worked remarkably well.

       The embassy has strongly supported PEPFAR and its participating agencies. For
example, PAS designed and implemented a year-long campaign in 2010 that used popular local
musicians to encourage youth to adopt responsible sexual behavior. The campaign included hip-
hop concerts, school visits, the recording of original CDs and DVDs, and a visit by a well-known
U.S. hip-hop artist. The embassy estimated the campaign reached 38,000 youth directly, and
more indirectly. Senior PEPFAR staff and the PAO agree that more should be done to brand
PEPFAR as a U.S. Government program so that there is greater public recognition that the
United States is Botswana’s largest and most important partner in this endeavor.

Staffing and Oversight

         Although PEPFAR funding has declined and will continue to do so over the next several
years, the program’s staff size has increased. In 2009, PEPFAR had a budget of $90 million and
a staff of 101. In 2010, it had a budget of $87 million and a staff of 111. In 2011, it has a budget
of $84 million and an authorized staff of 116. The staff includes 15 relatively expensive third
country professionals who work for CDC on contract. A number of PEPFAR staff expressed
misgivings to the inspection team about the value of these contractors. PEPFAR plans to hire an
outside human resources (HR) consultant this year to help it evaluate skill sets and staffing needs
as the program goes forward.

          Informal Recommendation 1: Embassy Gaborone should require that the President’s
          Emergency Plan for AIDS Relief’s upcoming staff review include recommendations
          on staff size, costs, and skill sets.

        The fraud investigation at CDC highlights the need for careful monitoring of expenses.
The Botswana Government is PEPFAR’s largest partner, but some 60 local and international
nongovernmental organizations and other partners also receive funding. Several persons
associated with the PEPFAR program expressed concern about whether the expenditure of these
funds was being monitored adequately. Separate from these program funds, the embassy tracks
six other PEPFAR accounts, including funding for CDC construction projects (in coordination
with the Regional Procurement Support Office in Frankfurt), public diplomacy, the regional
environmental and health office, the Ambassador’s Special Self-Help fund (supporting small-
scale community development projects), USAID local staff, and PEPFAR office funds. The
PEPFAR coordinator needs ready access to spreadsheets that provide an accounting of these
funds, broken down by each of the six categories.

          Informal Recommendation 2: Embassy Gaborone should require the President’s
          Emergency Plan for AIDS Relief coordinator to submit a written report to the
          Ambassador outlining management structures and processes in place to guard against
          waste, fraud, and mismanagement in the use of program funds.

          Informal Recommendation 3: Embassy Gaborone should either provide the
          President’s Emergency Plan for AIDS Relief coordinator with a monthly accounting of
                                           7
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

          President’s Emergency Plan for AIDS Relief funds managed by the embassy, or
          arrange direct access to funding reports through the Department of State’s
          consolidated overseas accountability support toolbox software.

Political and other Policy Programs

         In addition to the health-related programs that dominate the embassy’s agenda, the
mission has robust platforms to pursue political, economic, scientific, and law enforcement
goals, including a combined political and economic section and a regional office funded by the
Bureau of Oceans and International Environmental and Scientific Affairs. The embassy also
supports an international police training academy located outside Gaborone, one of six such
facilities funded by the Bureau of International Narcotics and Law Enforcement Affairs. The
Department of the Treasury has seconded one officer to the Government of Botswana to work on
strengthening money-laundering and counterterrorism procedures. All are represented on the
country team. Coordination and information sharing among them is extensive and effective.

Political and Economic Section

         The combined political/economic section of three officers and two local staff members
produces high-quality reporting and analysis. For years, the section operated with two reporting
officers, a section chief, and an ELO. Much of their time was spent preparing mandated reports
on human rights, trafficking in persons, and commercial issues and supporting the consular and
public affairs sections. Reporting output was modest. In September 2010 a second entry-level
reporting officer joined the section under Diplomacy 3.0, the Department’s ambitious hiring
initiative. The addition of the third officer has led to expanded reporting, including thoughtful
political and economic analyses.

        The section focuses on three issues of particular interest to Washington policymakers:
working effectively with SADC; persuading the Government of Botswana to adopt basic
legislation outlawing trafficking in persons; and monitoring controversies surrounding a small
group of indigenous people, the San, who were displaced by the creation of the sprawling
Greater Kalahari Game Reserve. The section has addressed all three issues thoroughly and
effectively. For example, some 20 percent of the embassy’s substantive reporting in 2010
focused on SADC and its policies toward Zimbabwe. The cables were well sourced, offered
reasoned policy advice, and correctly predicted outcomes. In addition, the section contributed to
a detailed strategy paper on how to promote more fruitful relations between the United States
and SADC. Having the third officer allows the section to engage in greater outreach to SADC
officials and should result in a deeper understanding of the institution and how it operates.
Washington consumers were consistent in their praise for embassy coverage of SADC.

        Botswana’s failure to pass anti-trafficking legislation has become an irritant that draws
high-level Department attention when annual trafficking reports are prepared. The embassy
devotes considerable time and resources to the issue. Embassy officers meet regularly with
trafficking-in-person contacts. In the 6 months preceding the inspection, the Ambassador
discussed the issue twice at the ministerial level, presided over the opening of an anti-trafficking
conference, and publicly urged the government to act. Reporting officers prepared and circulated
a briefing book on trafficking to senior government officials. Although the embassy has
                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

demonstrated a strong commitment to the issue, it does not always report developments. At least
two potentially important trafficking-related exchanges went unreported; the inspection team
counseled the embassy to use front channel reporting more extensively to keep Washington
officials informed of developments.

        The controversy over the San in the Kalahari affects fewer than 200 people, but it has
attracted the attention of prominent international human rights groups and emerged as a domestic
political issue. Regular embassy reports provide Washington policymakers with up-to-date
information. During the inspection, one political officer had just returned from a field visit to the
Kalahari that should yield additional insights. Washington consumers gave high marks to the
embassy’s coverage of the issue.

        A review of work calendars indicated that all three officers meet with outside contacts but
spend considerable time in the embassy. Several developments should allow the
political/economic section to increase outreach efforts and to develop new contacts, particularly
among young leaders. First, the executive office revamped representation policy in 2010 and
now provides each section with a budget. Second, the section has developed a robust outreach
plan to increase contacts in government, SADC, and civil society. If followed, the outreach plan
would get them outside more often than is currently the case.

Regional Environment and Health Office

        This regional environment and health office supports diplomatic efforts related to climate
change, water, health, and other science issues in 10 southern African countries. It is staffed by one
officer and one local employee. The officer engages ambassadors and DCMs throughout southern
Africa, as well as senior host country officials. She also assists reporting officers, chairs public
affairs events related to climate change and other issues, and has significant bilateral
responsibilities, including managing several health projects. The existing budget allows the officer
to travel about 30 percent of her time, which is sufficient to visit most, but not all, of the countries
in her area of responsibility.

        In addition to having regional responsibilities, the officer covers the bilateral PEPFAR
program in Botswana, which includes attending several weekly PEPFAR meetings. Two officers
in the political/economic section also devote time to PEPFAR. After reviewing work statements
and reporting assignments, the inspection team recommended that the embassy transfer
responsibility for PEPFAR reporting in Botswana from the officer in the regional environment and
health office to an economic officer.

          Informal Recommendation 4: Embassy Gaborone should transfer responsibility for
          President’s Emergency Plan for AIDS Relief reporting from the regional environment
          and health office to the political/economic section.

International Law Enforcement Academy

      The International Law Enforcement Academy is staffed by two U.S. direct-hire
employees and operates in conjunction with the Government of Botswana. It receives about $3.5

                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

million annually in U.S. Government funding and trains law enforcement officials throughout
Africa.

        The relationship between the academy and the embassy yields mutual benefits. The
embassy provides necessary management and administrative support, and the Ambassador and
DCM attend high-profile public events related to the academy. The academy serves general
mission goals by expanding Botswana’s positive influence in the region. It also supports specific
goals, including efforts to combat trafficking in persons. In 2010, the academy added a course on
the subject of trafficking, and it recently distributed instructional videos to Botswana police
officials.

Small Grants Management

       A part-time eligible family member supervises the embassy’s small grants programs,
worth about $200,000 a year. She reports to the chief of the political/economic section. The
programs, most funded by PEPFAR or the Ambassador’s Self-Help Fund, deal primarily with
HIV/AIDS, including assistance to orphans and vulnerable children. The coordinator is familiar
with grant guidelines but has not received formal grants management training. The OIG team
found several information gaps in the embassy’s grant records. The political/economic chief does
not have a warrant; most grants were signed by the public affairs chief, who has a warrant.

Recommendation 1: Embassy Gaborone, in coordination with the Bureau of Human
Resources, should require the chief of the political/economic section to receive training and
obtain a grants warrant in order to sign paperwork for the grants the section manages. (Action:
Embassy Gaborone, in coordination with DGHR)

Recommendation 2: Embassy Gaborone should arrange for the coordinator of the
Ambassador’s Self-Help Fund to take online training in grants management from the Foreign
Service Institute. (Action: Embassy Gaborone)

Public Affairs Section

       Embassy Gaborone’s PAS has undergone a significant transformation with the arrival of
the new PAO in October 2010. Under his leadership, the section’s relations with embassy
leadership and with the public diplomacy office in the Bureau of African Affairs have improved
noticeably. PAS now has a more strategic direction. During OIG’s preliminary survey, the public
diplomacy leadership in Washington noted that the Ambassador and DCM’s confidence in the
new PAO was especially significant, given the emphasis both place on public diplomacy.

        Local staff also appreciates the new PAO’s open door policy, his willingness to solicit
and listen to their suggestions, and his decisionmaking ability. They feel they now have clear
goals and benchmarks by which to measure their achievements.

        Despite their improved morale, some PAS local staff members harbor concerns over the
section’s structure and lines of authority. Previously, all seven local staff members had reported
directly to the PAO; there was no local employee in a supervisory role. Since this arrangement
diverted the PAO’s attention away from the strategic focus the section needed, the DCM and
                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

previous PAO implemented a structural change establishing two local staff members as
supervisors. These two individuals report directly to the PAO and supervise the remaining local
staff. However, the non-supervisory local staff resented this change because they felt it had been
imposed on them without any consultation, and because of personnel difficulties within the
section.

        The current PAO inherited this situation, but he is committed to either making the new
lines of authority work or instituting adjustments that better meet the section’s needs. Whatever
direction the new PAO chooses, the local staff position descriptions do not describe the full
range of supervisory responsibilities or are otherwise outdated. Furthermore, the supervisory
employees do not have training plans in place that would enable them to acquire the necessary
leadership and management skills.

Recommendation 3: Embassy Gaborone should determine the appropriate structure for the
public affairs section and update the position descriptions of the local staff accordingly. (Action:
Embassy Gaborone)

Recommendation 4: Embassy Gaborone should provide supervisory skills training for the
public affairs section’s locally employed supervisors. (Action: Embassy Gaborone)

Move to New Offices

         The section soon will move to new offices, on the third floor of a shopping mall that is
still under construction. The move, for which the embassy obtained a colocation waiver, was
prompted by two factors: overcrowding in the chancery, and the steady decline in visitors to
PAS’s Information Resource Center because its location on the embassy compound made it
difficult to access. The move will allow personnel who are currently in unventilated basement
space to relocate to the offices currently occupied by PAS.

        The new PAS offices, located a short distance from the embassy compound, will be
bright and more accessible to the public, with ample space for programs and representational
events, including a rooftop venue. There also will be both staff and visitor parking.

        The construction manager told the OIG team that he would obtain formal Government of
Botswana occupancy permits by March 31, 2011; the PAS lease of the property would begin 30
days later. Although this schedule may not be met, it is not too soon for the PAO to coordinate
the logistics of the move. The Bureau of African Affairs provided the section with $80,000 for
new furnishings. The PAO also needs to determine whether the current PAS budget is sufficient
to sustain operations in the new location and whether additional funding will be required.

       It is also important for PAS to offer attractive programs in the first few weeks after the
move, to attract contacts to the new venue and to keep them coming back. PAS has not yet
planned any events for the new venue’s debut.

          Informal Recommendation 5: Embassy Gaborone should accelerate planning for the
          move of the public affairs section and for the programs and events to be held there
          during the first weeks and months of operation.
                                          11
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        The PAO has not fully considered the transportation issues that will result from the
section’s upcoming move. The PAS staff will need to use the motor pool, to commute to and
from the chancery and to attend meetings and functions in Gaborone and further afield.
However, the motor pool will no longer be a few feet away. The PAO needs to consider the
options for providing timely motor pool service at the new annex.

          Informal Recommendation 6: Embassy Gaborone should determine what kind of
          motor pool support is appropriate for the public affairs section in its new location.

Academic and Cultural Exchange Programs

       The section has a small but active Fulbright exchange program. In FY 2010, four U.S.
students and four U.S. scholars visited Botswana, and one scholar and six students from
Botswana visited the United States. The program collaborates primarily with the University of
Botswana, which provides housing for U.S. Fulbright lecturers as an in-kind, cost sharing
contribution.

        The section’s recent success in the Humphrey Fellowship program is impressive. After
having no nominees in FY 2009, the embassy nominated three candidates for the program in FY
2010, and all three were selected. Local employees say the change resulted from more effective
marketing of the program on the embassy’s part and active efforts by former Humphrey Fellows
to recruit new candidates. Increased collaboration with exchange program alumni, now a specific
PAS goal, portends greater success in recruiting good candidates and maintaining links between
the embassy and current and future leaders in Botswana.

        Embassy Botswana also uses its International Visitor Leadership Program well. (Two
former presidents of Botswana are alumni of the program.) Program nominations are linked
closely to goals identified in the MSRP and come from all parts of the mission. The DCM chairs
the selection committee. FY 2011 nominees are in programs related to transparency and good
governance, management of nongovernmental organizations, youth leadership, international
crime issues, and combating human trafficking, among other issues. By contrast, PAS has not
made much use of the Voluntary Visitor program in the recent past, but this is changing under
the section’s new leadership.

        The section has refocused the American Speakers program to invite speakers who have
expertise in areas that are more closely aligned with MSRP goals. This represents an important
change from past management. (See Information Program section below.)

Educational Advising

        As part of PAS’s effort toward the MSRP goal of expanding outreach to youth audiences
and fostering closer ties between future local leaders and the United States, the PAO (with the
Ambassador’s support) hopes to establish in the new PAS an educational advising office to
provide up-to-date information about higher education in the United States. The market for such
a service may be small, but it is important. Many of Botswana’s current generation of leaders are
U.S. educated. Providing educational advising services will help the United States compete with

                                         12
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

South African, European, and Asian universities in educating the next generation of Botswana’s
leaders.

        Given the size of the potential market, however, hiring a full-time adviser would not be
cost effective, so the PAO plans to task the incumbent of the educational advisor position with
focusing on youth and alumni outreach as well. This arrangement is favorable, but finding
someone with the required skill set will be difficult. Compounding the problem, PAS currently
has no vacant positions, and the likelihood of obtaining funding for a new position is low. The
PAO intends to seek funding from the Bureau of Educational and Cultural Affairs’ Office of
Alumni Affairs, which provided small grants to PAS Gaborone in 2005 and 2006. However,
since this funding would be nonrecurring, the PAO would have to hire the new person, once
identified, under a limited personal services contract, rather than as a direct hire. This stop-gap
arrangement is not sustainable for a service that the embassy hopes to provide on a long-term
basis. The OIG team discussed several short-term options with the PAO, including seeking
assistance from nearby U.S. embassies with full-time educational advisers on staff. If Embassy
Gaborone wants to offer educational advising services on a regular basis, the PAO will have to
find a more permanent source of funding.

          Informal Recommendation 7: Embassy Gaborone should review the current staffing
          structure in the public affairs section to determine whether any existing position could
          be reprogrammed as an educational adviser.

          Informal Recommendation 8: Embassy Gaborone should consult U.S. embassies in
          the region and the regional educational advising coordinator regarding short- and long-
          term options for providing educational advising services in Botswana.

Information Programs

        As in other embassies, PAS oversees media and public outreach activities for the mission
as a whole. To ensure that all mission elements stay on message and consider the potential public
diplomacy implications of their programs, the DCM established a strategic communications
working group that meets monthly and is chaired by the PAO. The working group meetings are
accomplishing the DCM’s goal of achieving better results through better coordination. For
example, when the Defense attaché office alerted PAS to an upcoming donation of books from
the Naval War College to the Botswana Defense Forces, PAS was able to garner extensive media
coverage for what would otherwise have been a low-profile event. The Defense attaché was so
pleased with the resulting coverage that he has assigned a staff member to be a permanent PAS
liaison. Advance coordination with PAS through the working group mechanism also resulted in
broad and favorable media coverage of a USAID donation of lab equipment to the Botswana
National Veterinary Laboratory. The Peace Corps is coordinating with PAS and other sections on
a wide range of activities celebrating the Corps’ 50th anniversary. PEPFAR and CDC also are
working with PAS to maximize the public diplomacy potential of a major new medical education
assistance program; this collaboration already has resulted in an hour-long radio interview with
the Ambassador and another interview with the PAO, as well as a roundtable event with medical
students and faculty.


                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        PAS manages the embassy’s Web site. Its format is dictated by the Department, and it
complies with all Federal guidelines concerning terms of privacy and terms of use. The embassy
also has three social media sites: Facebook, YouTube, and Flickr, which also comply with
Federal guidelines on terms of privacy and terms of use. All of the sites are kept up to date, and
all had postings on the embassy’s film festival celebrating Black History Month by the morning
after opening night. The webmaster has increased the number of friends on the embassy’s
Facebook site by about 50 percent since he joined PAS 9 months ago. He also has a number of
ideas to make the site more interesting to its intended youth audience.

         One of PAS’s MSRP goals is to foster better sourced and more authoritative reporting in
local media, thereby promoting greater governmental transparency and accountability. One of
the first experts brought in under the FY 2011 speakers program was a San Francisco based
television journalist, who gave broadcast training workshops at three different radio stations in
Gaborone. The senior local staff member noted that journalists who received the training are
doing a better job separating news coverage from editorial comment. The section intends to
promote follow-up programs and send selected journalists on exchange programs to the United
States.

Grants Management

        The PAO is the only warranted grants officer at post. He signs grants for public
diplomacy programs and for projects funded by PEPFAR that are recommended for approval by
the Ambassador’s Self-Help Fund program coordinator and by the regional environment and
health officer. The PAO held a $100,000 grants warrant at his previous post and took the
enhanced training required for that level of signing authority. At the PAO’s request, the
Department’s Office of the Procurement Executive increased his warrant authority to $200,000
so that he could sign the grant for the PEPFAR-funded, PAS-organized “Get Up and Go”
program described elsewhere in this report.

        Despite the number of programs they recommend for funding, neither the Ambassador’s
Self-Help Fund program coordinator nor the regional environment and health officer has taken
formal grants training. PEPFAR funding available to the regional environment and health officer
will end shortly, but the Self-Help programs will continue. Having the Self-Help program
coordinator take the Foreign Service Institute’s basic online training course could resolve the
minor problems in the grants files. (See this and associated recommendations in the PEPFAR
section of this report.)

        Formal grants documents can be long and confusing to would-be grantees who are
unfamiliar with “legal English” or the grants process. They are also cumbersome for offices that
award multiple grants with a low dollar value. Recognizing that efforts to monitor and close out
such grants and recover small amounts of funding often cost more in terms of manpower and
processing time than the amounts recovered, the Department established fixed obligation grants.
These can be used for grants valued under $25,000 that have a definable, short-term program; for
which costs can be reasonably determined at the time of the award; and for which performance is
verifiable. Since fixed obligation grants involve less paperwork for both the grantee and those
who manage grant programs at the embassy, they are advisable wherever possible.

                                          14
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

          Informal Recommendation 9: Embassy Gaborone should increase the use of fixed
          obligation grants for all grants under $25,000.

Consular Affairs

        The small consular section is well run, and its sole, full-time consular officer is energetic
and forward-thinking. Although both visa and American citizens services workloads are modest
and expected to remain so, when there is a problem case, its resolution can take extraordinary
effort and perseverance.

Management Issues

       The consular officer is vigilant about efficiency measures and workflow. He has
reviewed and updated the section’s standard operating procedures and reduced file holdings to
the minimum required and is turning his attention to reinvigorating the warden system and
conducting a targeted disaster preparedness exercise. Internal controls appear to be excellent,
with the required documentation for transfers of accountability and fee reconciliation. Both the
work and waiting areas are appropriate for the workload.

        The locally employed consular assistant has 24 years of experience, but she works best
on specific tasks under close supervision and cannot troubleshoot complex cases. The section is
fortunate to have an experienced consular associate as the third member of the consular team, but
an embassy can never guarantee the availability of eligible family members at such a small
embassy, especially someone with years of relevant experience. Management’s medium-term
priority is to prepare for the obligatory retirement of the locally employed assistant in 4 years
time and to decide, upon the departure of the current consular associate, whether the section
would be served better by two local staff rather than by one local assistant and a family member.
The OIG team did not make a recommendation on the section’s personnel structure because both
the Bureau of Consular Affairs and post management are well aware of the time line and the
options, including the need to hire a second local consular assistant as a trainee well before the
departure of the incumbent.

Visas and Visa Fraud
        Third country nationals account for approximately 45 percent of the nonimmigrant visa
workload. The majority of those applicants are permanent residents of Botswana, mainly from
neighboring countries or from southwest Asia. Most of the suspect documents or unlikely claims
of business ties in the United States come from young men with less than 5 years in country who
are applying to travel to the United States to buy used vehicles or beauty products. The refusal
rate for these applicants is considerably higher than it is for natives of Botswana. The Office of
Fraud Prevention Programs in the Bureau of Consular Affairs works closely with consular
sections in other parts of Africa to monitor the used vehicle trade and its nexus with illegal
immigration or other criminal activity. Embassy Gaborone is just beginning to receive
applications for this purported commercial venture, and the consular officer has not yet analyzed
the relevant cases or advised the Office of Fraud Prevention Programs about this recent trend.



                                           15
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

          Informal Recommendation 10: Embassy Botswana should analyze recent
          nonimmigrant visa applications for travel to purchase used vehicles and should work
          with the Office of Fraud Prevention Programs to determine whether the applications
          provide useful information for ongoing law enforcement efforts.
        The consular section provides visa services by appointment two mornings a week, which
appears to be ample for the demand. Nonetheless, bottlenecks were developing, because consular
clients were required to leave a second piece of identification with the guards at the compound
access control while being processed for visas. The process of collecting and then returning this
supplemental identification was time consuming. When the OIG team pointed out that this
process was unnecessary, the embassy ceased the practice immediately.

        Gaborone is processing more following-to-join refugee and asylum cases than in the past,
largely for Zimbabwean citizens. This workload is likely to increase even more over the next few
years. These applicants require medical examinations and occasionally DNA testing to confirm
relationships. Because Gaborone ceased processing immigrant visas several years ago, the
embassy had to identify a panel physician hastily to conduct refugee and asylum medical exams.
During the inspection, the consular officer was trying to resolve performance problems with the
current panel physician while looking for a more experienced replacement. At present, without a
reliable panel physician, these cases can take an inordinate amount of the staff’s time and
attention.
       The visa referral and Visas Viper programs are appropriately managed.

American Citizens Services
       There is a fair amount of safari and ecotourism in Botswana, but arrests, deaths, and
welfare and whereabouts cases are rare. Fortunately, when the consular officer needs to attend to
a complex case such as a recent medical evacuation, he can call on the consular associate or the
backup consular officers to provide other routine but essential visa and passport services.
Botswana is not party to The Hague Abduction Convention or The Hague Adoption Convention,
and the consular officer plans to raise the dialogue on these two conventions in the coming
months.




                                         16
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Resource Management
Agency                      U.S. Direct-Hire       U.S. Local-   Local   Total     Total
                              Authorized           Hire Staff    Staff   Staff    Funding
                               Positions                                          FY 2010

Department – Program                       10                4       8     22     $12,802,628
Department – ICASS                          5                5      87     97      $4,288,400
Department – Public                         1                        8      9        $473,300
Diplomacy
Department – Diplomatic                        4                     2      5       $681,174
Security
Department – Marine                            6                     4     10       $107,151
Security
Department –                                                                         $29,100
Representation
Department – OBO                               1                            1        $463,481
Defense Attaché Office                         2                     1      2         $75,675
Office of Security                             2                     3      5       $ 250,000
Cooperation
Department of Homeland                         1                     9     10      $4,219,556
Security (ILEA and INL)
Treasury                                    1                               1        $635,981
USAID                                       6                        7     13     $18,842,551
Peace Corps                                 3                        2      5      $2,463,000
IBB                                         2                       18     20      $1,894,625
CDC                                        15                      212    227     $67,292,352
Totals                                     59                9     361    427    $114,518,974


Note:
   •    Budget figures include both recurring and nonrecurring amounts.
   •    ICASS budget figure include nonrecurring and carry-over funds.
   •    IBB and Treasury are non-post-held allotments.
   •    USAID and CDC budget figures include both post-held and non-post-held allotments.
        Most funds for USAID and CDC are non-post-held.




                                        17
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

General Management

        The quality of management operations is mixed, with some units working well and others
struggling. Among American management staff there is general agreement that the section
members work well together and form a cohesive team. Two ELOs, the financial management
officer, and the facilities manager run their respective sections well. The management officer has
technical and intellectual skills (b)(5)(b)(6)


       (b)(5)(b)(6)




                                                               Realizing the importance of the
management section to all mission elements and the key role the management officer plays in the
community, the Ambassador and DCM have devoted considerable attention to counseling and
mitigation efforts, all the while trying to increase the management operation’s effectiveness.

        The management section is working to rectify several operational weaknesses. The HR
officer departed in summer 2010, and her replacement is not expected to arrive before May 2011.
In the meantime, important personnel issues have languished. Financial management operations
are on the mend after a rocky period, thanks to the visit of a senior local employee from Embassy
Paris and the efforts of Embassy Gaborone’s first-tour financial management officer. General
services operations need attention and would benefit from closer management officer oversight.
The facilities management unit functions well but needs an HR officer to regularize a staff
reorganization that began in 2009.

        The management officer has focused on some management controls issues and resolved
several longstanding shortcomings, including collecting a number of outstanding travel
advances. Unresolved controls issues remain in inventory and motor pool. (See the Management
Controls section below.)

Financial Management Office

        The financial management office was faced with a number of challenges, including poor
customer service, when the new, first-tour financial management officer arrived at Embassy
Gaborone. His leadership skills have improved operations and motivated staff. The office is
working hard to overcome deficiencies and improve financial services. The Bureau of African
Affairs executive office sent one of its Paris-based financial specialists, a member of the five-
person Bureau of African Affairs roving team, to Gaborone. The financial specialist worked with
the local staff and the new American financial management officer to review financial
operations and procedures and assess local staff training needs.

        The financial specialist reviewed each aspect of financial management and suggested
specific steps to take to improve activities. He recommended using spreadsheets and other
auxiliary records to review daily activities, correct errors, and control backlogs. He provided
limited on-the-job training where it was needed and recommended that the embassy appoint a
                                         18
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

supervisor for the accounting unit. As a result, one of the three accountants is attending the
Foreign Service Institute’s 4-week financial management course and will likely become the
unit’s supervisor.

        To reinforce improvements in the office, the financial management officer has
established work development plans and underscored the need for supervision and regular
reviews. A second visit by one of the Bureau of African Affairs’ roving financial specialists
would be useful to assess that the new systems are working well. The OIG team also notes that
the Department’s Integrated Logistics Management System will be implemented at the embassy
in May 2011, which could be a good time for a second rover visit.

Recommendation 5: Embassy Gaborone should request that the Bureau of African Affairs
send a visiting financial specialist from its roving team to reinforce earlier recommendations and
help the staff to use the Department of State’s Integrated Logistics Management System.
(Action: Embassy Gaborone)

Cashiering

        The Class B cashier’s accountability has increased from (b) (5) to (b) (5)    because the
embassy has assumed CDC’s cashiering responsibilities. The cashier is well organized and fully
trained. She supervises seven subcashiers, several of whom are located off site. The OIG team
observed a surprise cash count, which was accomplished quickly, without mistakes, and
balanced as required. The Financial Support and Training Office in Paris oversees accountability
for the U.S. Government funds embassy cashiers in Africa hold. The cashier’s communication
with the cashier monitors is smooth and demonstrates her knowledge of the requirements.

        The alternate cashier works only when the primary cashier is away and is consequently
less knowledgeable. More frequent opportunities to work with the primary cashier would provide
more oversight and on-the-job training and allow the primary cashier to exercise direct
supervision.

          Informal Recommendation 11: Embassy Gaborone should require the alternate
          cashier in the financial management section to perform cashiering duties 1 week each
          month.

Outstanding Travel Advances

         The embassy failed to collect outstanding travel advances over many years. At one point
in 2010, the unpaid balance was nearly $100,000, with most of this amount attributable to local
staff. In some cases, staff members received advance payment for trips they did not make, yet
they failed to repay advances. In other cases, staff failed to file travel vouchers. In 2010, the
financial management office began to collect unpaid advances; the outstanding, unpaid balance
was reduced to about $25,000 at the time of the inspection, most of which was for staff still on
travel. The embassy continues to work with the Department’s financial management center in
Charleston, South Carolina, to make sure that repayment plans are completed through payroll
deductions and are properly recorded. However, local employees are confused about the process

                                          19
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

they should follow when they have fully paid off their advances, so that their earnings and leave
statements will reflect final payment.

          Informal Recommendation 12: Embassy Gaborone should issue a management notice
          that details requirements to repay travel advances and steps to take once the balance is
          fully paid.

Human Resources

         The HR office lacks leadership and direction, having been without an HR officer since
fall of 2010. The management officer who serves as acting HR officer relies heavily on the HR
specialist, who is skilled technically but struggles with supervising the two clerks. The office is
behind in tracking performance evaluations, staff training, computer-aided job evaluations,
hiring actions, and other tasks (b) (5)                                        workload that
includes providing services to more than 300 local employees throughout the mission. The office
requires more supervisory involvement than the management officer provides.

          Informal Recommendation 13: Embassy Gaborone should request that the Bureau of
          African Affairs provide a temporary duty human resources officer until the
          replacement officer can arrive in summer 2011.

        A number of sections and units in the mission need special attention from the HR office
to reorganize their employment structure and adjust or create new positions. The general services
office has a number of position descriptions that are ready for the computer-aided job evaluation
system and several more that are in development. (See Recommendation 19.) The facilities
management unit needs help reorganizing its supervisory structure. (See the Facilities
Management section of this report for more details.)

          Informal Recommendation 14: Embassy Gaborone should provide guidance and
          assistance to supervisors as they evaluate and improve their units’ employment
          structures.

        Several performance evaluations and work development plans for local employees are
long overdue. The HR office sends only one notice to supervisors before an employee’s
evaluation is due, and recently it has sent the notice out late. Embassy procedures require the HR
section to report overdue evaluations to the DCM, but the office does not always do so on a
timely basis.

          Informal Recommendation 15: Embassy Gaborone should revise the notification
          system for local employee performance evaluations and implement stronger policy
          enforcement measures.

       Embassy Gaborone is working with the Bureau of Human Resources to implement
changes in the local compensation plan for severance pay and sick leave, bringing it in line with
new local labor laws. Last year, the Office of the Procurement Executive contacted both the
embassy and the Office of Overseas Employment about the possibility of including Embassy
Gaborone in a regional pilot program. In the process, Embassy Gaborone and the Office of the
                                          20
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Procurement Executive could not find an extant health insurance contract, although there was
mention of a contract with the Botswana Medical Aid Society purportedly written in 1983. The
embassy could not locate a copy of the 1983 contract, however, nor could it find any evidence
that the contract was ever renewed. The financial center in Charleston is making payments
equivalent to 70 percent of employees’ health insurance premiums to the Botswana Medical Aid
Society on behalf of Embassy Gaborone and is also deducting payments for the remaining 30
percent of the health insurance premium from local staff salaries, but the embassy was unable to
verify a valid contract in force.

Recommendation 6: Embassy Gaborone, in coordination with the Bureau of Human
Resources and the Bureau of Administration, should obtain and keep on file a new health
insurance contract for the local employees. (Action: Embassy Gaborone, in coordination with
DGHR and A)

        Embassy Gaborone does not have a strategic approach to employee training. The HR
office records the training programs completed by local staff, but the mission’s individual
sections and units are responsible for planning who will attend training. In the past, the HR office
and management officer would approve nearly all requested training. Department regulations (3
FAH-2 H-136.2) outline the components of a successful training program: orientation,
improving skills, and developmental training. The mission successfully organized a customer
service orientation for all International Cooperative Administrative Support Services (ICASS)
employees using local resources, which would be a good model for finding training resources
that meet the mission’s needs and maximize its limited resources.

Recommendation 7: Embassy Gaborone should develop a mission-wide training plan that
includes procedures for prioritizing training requests. (Action: Embassy Gaborone)

General Services

        The general services office is in the midst of a number of procedural and organizational
changes. The focus is on creating a travel clerk position and improving coordination between
procurement and financial management. New coordination procedures are not yet complete; the
receiving process, in particular, requires more attention. Other units in the general services office
also have a number of problems with internal controls. (See the Management Controls section
below.) The general services officer (GSO) manages the day-to-day processes well but needs
assistance identifying vulnerabilities and improving management controls.

Property Management

        The property management unit is well motivated and has a strong relationship with the
GSO. The GSO recently revised all position descriptions for the property management unit. The
warehousemen positions were all upgraded, and the supervisory positions are waiting to be
reevaluated by the HR office. The GSO’s review of position descriptions is particularly helpful
as the unit prepares to assume the contents of CDC’s storage units into the embassy warehouse.
However, the GSO and the property management supervisor need to address certain management
control vulnerabilities. (See the Management Controls section for more details.)

                                          21
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         The embassy uses an unoccupied warehouse with more than 2,000 square meters of
storage space for embassy and ICASS property. The GSO evaluated the contents on his arrival
and held a number of auctions to dispose of excess property—an action plan that freed up
warehouse space and thus proved fortuitous when CDC agreed to transfer their property to the
ICASS warehouse. The building contains adequate equipment to store property on racks and
allow for free movement. Nonetheless, some project equipment has been left on the floor, in the
aisles, and in front of the stairwell to the expendables area, creating a hazard.

          Informal Recommendation 16: Embassy Gaborone should clear all stored property
          from the floor of the warehouse and implement procedures to prevent this situation
          from recurring in the future.

        The warehouse is not climate controlled and does not have any ventilation other than
what is provided when the doors are open. On the day of the inspection, employees were painting
in the warehouse, and the OIG inspector noted that the air quality needed improvement.

          Informal Recommendation 17: Embassy Gaborone should provide ventilation in the
          warehouse.

Official Vehicles

       The mission policy on use of official vehicles provides for the maximum authorization of
unofficial use allowed by 14 FAM 433. However, the Ambassador’s approval for other
authorized use does not include a justification for such use, as required by 14 FAM 433.3-1. For
example, the policy does not identify why the Ambassador finds that public transportation is
unsafe or unavailable.

Recommendation 8: Embassy Gaborone should prepare a written finding of the circumstances
that justify the other authorized use of official vehicles, including home-to-office transportation
and transport of children to school. (Action: Embassy Gaborone)

       The mission is not enforcing the motor vehicle safety management requirement that all
passengers in official vehicles wear seat belts. Vehicles do have the required placards to inform
passengers of the requirement, but the motor pool drivers are not informing passengers of the
requirement and then waiting for passengers to fasten the belts before moving the vehicle.

Recommendation 9: Embassy Gaborone should require the drivers of official vehicles to
verbally inform passengers of the seat belt requirement and then wait for them to comply before
moving the vehicle. (Action: Embassy Gaborone)

        Embassy Gaborone’s mission policy allows limited self-drive privileges for all embassy
employees. The motor pool unit requires all nonchauffeurs to complete a form that outlines the
driver’s liability for other authorized use, a practice that the OIG team found to be extremely
useful. However, the only safety prerequisite for nonchauffeurs is a driving competency test. The
motor vehicle safety management program requires that all operators of official vehicles must
complete an in-country driving orientation, be medically evaluated and certified for driving, and
receive safe driver training on a regular basis.
                                          22
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 10: Embassy Gaborone should include all of the motor vehicle safety
management program’s requirements for drivers in the mission vehicle policy. (Action: Embassy
Gaborone)

        The GSO, as motor pool manager, is not supervising the maintenance of official vehicles.
A number of drivers are not performing daily vehicle checks, and the facilities maintenance unit
regularly fails to wash its vehicles. The OIG team observed a vehicle being driven with a cracked
windshield, instead of being taken out of service until it is repaired. Guidance in 14 FAH-1 H-
811.4 directs the motor pool manager to establish effective routines for the inspection and
preventive maintenance of vehicles.

Recommendation 11: Embassy Gaborone should implement procedures for routine
maintenance and repair of motor pool vehicles. (Action: Embassy Gaborone)

Shipping

        The shipping unit has only a single shipping assistant and one expeditor. While this
works well for most of the year, the shipping assistant finds it difficult to keep up with deliveries
and household effects shipments during the summer transfer season. The GSO plans to assign the
new general services assistant to help with this task in the coming summer. A number of
respondents to OIG questionnaires commented that the delivery of their household effects took a
surprisingly long time, but the delay is largely due to the overland transfer of shipments from the
port in Durban, South Africa, to Gaborone. The shipping assistant issues weekly notices to
customers on the status of incoming shipments.

       The GSO noted that the shipping section was not requiring vendors to weigh their trucks
before and after an incoming delivery, only for outgoing shipments. This procedure is required
by 14 FAM 612.2-2 b. for comparison with the initial weight measured on the shipment’s
departure. The shipping assistant and GSO agreed to implement this procedure immediately.

           Informal Recommendation 18: Embassy Gaborone should require vendors to weigh
           their trucks before and after the delivery of all incoming shipments.

Procurement

         In FY 2010, the procurement unit processed approximately 1,300 procurements, valued
in all at approximately $7.5 million. Purchase orders and blanket purchase agreements for CDC
account for about 15 percent of all purchases and about 60 percent of the financial value. The
unit’s staff is proficient and competent at meeting procurement requirements, and the documents
show an effort to obtain competition, although few vendors in Botswana are capable of meeting
requirements or are willing to bid to provide goods and services.

        Cooperation between the procurement staff and financial management staff is improving.
The two American officers have been developing standard operating procedures that are nearly
completed. The written procedures include a segment on the process for handling receiving
reports, which could result in better coordination and quicker payments for vendors.

                                          23
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Blanket Purchase Agreements

        The embassy has several blanket purchase agreements, which are competed and awarded
to one or more responsive bidders to supply goods or services for recurring needs. They are
useful and cost-effective procurement instruments that limit the need for repeated competitive
awards.

        Funds are not obligated on blanket purchase agreements until purchases are made; hence,
it is imperative to check with the financial management office to make sure that funds are
available before completing the purchase. According to the Bureau of Administration’s Office of
the Procurement Executive’s guidelines for overseas contracting and simplified acquisitions,
embassies should maintain a log of purchases made on blanket purchase agreements and forward
this information to the certifying office and the contracting officer. Authorized purchasers do not
always fill out the log.

          Informal Recommendation 19: Embassy Gaborone should issue a management notice
          detailing the importance of confirming funds availability before making purchases on
          blanket purchase agreements.

Housing

        The Bureau of Overseas Building Operations complimented Embassy Gaborone for its
housing program and rental initiatives. The embassy renewed or acquired leases within
established rental benchmarks and assigned housing units within space standards, contributing to
the Department’s cost-containment goals.

       The embassy maintains 16 U.S. Government-owned residences and 28 short-term leased
properties. The housing board meets infrequently, when short-term leases are under
consideration and when a specific leased or U.S. Government-owned residence is being
assigned.

Paying Personal Bills

        The Botswana Telephone Company sends bills for personal residential telephones
directly to the houses. Instead of paying them directly to the telephone company at mall kiosks or
company offices, direct-hire staff bring these bills and their payments to the management
assistant in the general services office. The assistant takes the payments, records the amounts in a
ledger, puts the bills and cash in envelopes, and gives the payments to the motor pool. Drivers
deliver the payments to the phone company, collect the receipts, and give the receipts to the
assistant, who then distributes them to the staff.

          Informal Recommendation 20: Embassy Gaborone should discontinue allowing local
          staff and motor pool employees to pay personal bills through the embassy.




                                          24
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Facilities Management

         An exceptional first-tour manager oversees the facilities management unit, a team that
responds quickly and effectively to customer concerns. When the unit manager arrived in 2009,
25 local staff members reported to a single local supervisor. The new manager quickly realized
that this structure was not working and did not provide sufficient accountability. In coordination
with the embassy’s HR officer, he established a pilot project that created six team leaders, giving
them additional responsibility but leaving job descriptions and grade levels unchanged. His
intent was to try the team leader concept and get buy-in from the staff before making permanent
changes and advertising the new positions.

         The project is working well but now needs to be formalized. Team leaders want more
authority than they can exert in their “acting” capacity, and others in the section resent the team
leaders’ role. The facilities manager is aware of the problem, but the gap in the HR officer
position has delayed formalizing the reorganization. The current facilities manager has both the
institutional knowledge and credibility with his local employees to implement the changes, once
they are made; the formalization of the new arrangement should take place prior to his departure
in summer 2011.

Recommendation 12: Embassy Gaborone should formalize the reorganization of the facilities
management unit, prepare and classify all position descriptions, and advertise revised positions
as necessary. (Action: Embassy Gaborone)

        The facilities management unit’s heavy maintenance workload includes providing
services to the chancery and 16 U.S. Government-owned houses, including the Ambassador’s
and DCM’s residences. Landlords in Gaborone rarely resolve maintenance problems in the
embassy’s 28 leased houses, requiring the facilities management unit to perform the work and
GSO to reduce lease payments to recover the costs. Within the housing pool, little equipment and
few appliances are standardized. Air conditioning units, gate motors, and light fixtures vary from
house to house, even among the government-owned houses. This lack of standardization creates
operating inefficiencies, notably by making it difficult to stock replacement parts for different
brands of appliances and equipment. The embassy has no blanket purchase agreement to procure
what is needed to mitigate this problem.

          Informal Recommendation 21: Embassy Gaborone should compete and award a
          blanket purchase agreement for the purchase of common appliances and equipment for
          U.S. Government-owned properties to promote standardization.

        The facilities management unit contracts out some repair and remodeling work on
embassy properties, but it does most of this kind of work in house. The contractor environment
in Botswana is challenging, and quality control requires constant attention. Embassy employees
oversee all contractors performing such work, sometimes resulting in double coverage and
inefficiency. Even with this oversight, embassy employees often have to fix contractor errors or
redo shoddy work. The unit’s employees work significant amounts of overtime, but a large work
order backlog remains. The facilities manager has prepared justifications for four additional
positions, but the management officer has not presented them to the ICASS council for approval.

                                          25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

          Informal Recommendation 22: Embassy Gaborone should request the International
          Cooperative Administrative Support Services council’s approval for four additional
          positions in the facilities management unit.

         As noted in the public affairs section above, the embassy’s public diplomacy offices and
the Information Resource Center will move to leased space in a new commercial building once
construction is completed. The facilities manager has prepared the initial plans for the fit-out of
the new space, and the GSO has solicited contracts for architectural and engineering drawings.
The facilities manager presented preliminary space plans to PAS in fall 2010 for review, but
prior to this review there had been little coordination between the two offices. Coordination is
critical to identify and resolve problems before they require expensive fixes. As the project goes
forward, the facilities manager and the PAO should coordinate on the fit-out and space planning
for the new offices.

          Informal Recommendation 23: Embassy Gaborone should coordinate all plans for fit-
          out and space allocation for the new public affairs section offices.

        The Safety, Health, and Environmental Management (SHEM) program needs more
attention. A review from the SHEM support office in the Bureau of Overseas Buildings
Operations resulted in a comprehensive report on deficiencies and needed corrective actions. As
part of his duties, the senior local employee in the facilities management unit has taken training
and assists the facilities manager in responding to SHEM issues. The unit has taken action on
those areas that pose the greatest safety risks, but heavy workload has prevented the staff from
addressing all recommendations.

          Informal Recommendation 24: Embassy Gaborone should correct all deficiencies
          noted in the Safety, Health, and Environmental Management report.

Information Management

      The information management section performs adequately. Computers, servers, and
network infrastructure are maintained and supported appropriately.

        Embassy Gaborone has been chronically short staffed. Some staff members do not have
the prerequisite technical knowledge to support the infrastructure. The information management
officer’s (IMO) portfolio has therefore increased. The IMO completed four major projects in
2010 and dealt with a difficult professional relationship with the management officer. The extra
workload required substantial portions of the IMO’s time.

        The staffing gap and extra workload resulted in the IMO providing minimal support to
locally employed staff. The current and past IMOs have not focused on local staff development
and morale, giving higher priority to major upgrades and installations. Nonetheless, the local
employees in the information systems center form a solid team and provide excellent customer
service.




                                          26
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Diplomatic Post Office

        The mail and pouch functions received low scores in the ICASS surveys and OIG
questionnaires, and respondents criticized the embassy’s personal mail services. Embassy
Gaborone requested host nation approval in February 2011 for the establishment of a diplomatic
post office, following 18 months of preparation. Pouch regulations allow only video tape-sized
packages and do not allow battery shipments. The strict limitation on deliveries negatively
affects morale.

          Informal Recommendation 25: Embassy Gaborone should establish a Diplomatic
          Post Office.

Wide Area Network Issues

        Embassy Gaborone’s connection to the wide area network is erratic and slow. The IMO
is working with the Diplomatic Telecommunications Program Office and Enterprise Network
Management Operations Center to increase bandwidth and address wide area network problems.
The Enterprise Network Management Operations Center produced graphs showing 500
milliseconds latency and maximum packet loss greater than 22 percent. The engineers
recommended requesting Tier 3 support. Poor network performance results in document and
productivity loss while users wait for software to respond.

Recommendation 13: The Bureau of Information Resource Management, in coordination with
the Diplomatic Telecommunications Program Office and Embassy Gaborone, should resolve the
problems with the wide area network. (Action: IRM, in coordination with DTSPO and Embassy
Gaborone)

Electronic Folders

       Embassy Gaborone’s electronic folders on the classified and unclassified networks are
not configured correctly. Individual users are being assigned to common folders. For proper
folder management, the embassy should assign rights by groups rather than individuals. Folders
with incorrect permissions require extra administrative tasks.

Recommendation 14: Embassy Gaborone should assign group permissions to electronic folders.
(Action: Embassy Gaborone)

Air Conditioning

         The information systems center server room does not have adequate air conditioning. The
chancery has air conditioning ducts into the server room and a supplementary air conditioning
unit in the ceiling for chilled air, but the server room temperature still rises above acceptable
levels on warm days. According to 12 FAM 629.4-4 c., the IMO and the GSO are responsible for
maintaining the environment in the computer room according to the computer manufacturer’s
specifications. The British thermal units (BTU) produced from the servers are more than the air
conditioning systems are rated to handle. Server rooms with excessive heat can cause server
shutdowns and productivity loss.
                                         27
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Recommendation 15: Embassy Gaborone should repair, supplement, or replace the server room
air conditioning units. (Action: Embassy Gaborone)
(b) (5)




Recommendation 16: (b) (5)



       Embassy personnel use large amounts of file server space for storing personal photos.
Personal files are stored on expensive hard disks. The information systems security officer
spends an excessive amount of time reviewing personal files for inappropriate material.

             Informal Recommendation 26: Embassy Gaborone should purge all personal photo
             files from the server.

        Embassy Gaborone communicates using BlackBerry smart phones. The information
systems center supports the BlackBerry program, including both hardware and software use. The
local staff has no BlackBerry smart phone available in the office to provide help-desk support.

             Informal Recommendation 27: Embassy Gaborone should provide a BlackBerry cell
             phone to the information systems center for support services.
          (b) (5)


                                                      the information systems center’s American
and local employees have no regular staff meetings.

             Informal Recommendation 28: Embassy Gaborone should conduct weekly staff
             meetings with the information management locally employed and American staff.

        The Department is moving to new operating systems for the servers and workstations,
and local staff have not been fully trained on the new systems. Officer miscommunication has
resulted in the embassy missing some Department-funded training opportunities for systems
staff. Training is essential to keep up with changing computer environments. The Department
requires information assurance courses for system administrators.

             Informal Recommendation 29: Embassy Gaborone should provide mandatory and
             Department of State-funded training for the information systems center staff.

                                           28
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The Botswana Government’s “Attraction and Retention Policy for the Public Service”
implemented a 25 percent pay increase for information technology technicians in 2008. This
policy was implemented in response to the Botswana Government’s loss of information
technology technicians to private industry. The embassy’s locally employed staff did not receive
a corresponding pay increase. During the OIG inspection, one local employee changed
employment after being offered a 35 percent incentive salary by another employer.

          Informal Recommendation 30: Embassy Gaborone should conduct a wage survey for
          information management personnel.

Information Security

        Embassy Gaborone’s information management section has experienced a gap in the
information management specialist position since summer 2010; the replacement will arrive in
spring 2011. Because of staffing gaps, the remaining cleared American in the section has done
only minimal information security reviews. She has handled the cyber incidence response team’s
required actions but has not proactively reviewed inappropriate Internet surfing, file storage, and
audit logs.

          Informal Recommendation 31: Embassy Gaborone should require that the
          information management section perform all required information systems security
          officer duties.
       (b) (5)



          Informal Recommendation 32: (b) (5)




                                          29
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Quality of Life
Community Liaison Office

        Embassy Gaborone’s community liaison office (CLO) received positive scores in several
survey areas, notably the newcomer sponsorship program, the annual orientation session, and
CLO-sponsored recreational activities. There are two CLO coordinators, each working 24 hours
a week. They spend the largest portion of their time on newcomer preparedness, especially
sending emails to and responding to emails from newly assigned staff. The majority of the U.S.
direct-hire employees attend CLO events, many of which are funded with proceeds from a craft
fair and a chili cook-off at the end of 2010. Fundraising for CLO events requires creativity,
because there is no employee association to generate regular funding for community events.

        The coordinators report to the management officer and meet with him regularly. They do
not have a regularly scheduled meeting with the DCM, although he has an open door, and they
report many ad hoc communications with him. In many embassies, the coordinators meet
regularly with the DCM to provide direct feedback on community priorities and morale. The
OIG team discussed this idea with the DCM, and he readily agreed to include the CLO
coordinators in his weekly meeting schedule.

        The CLO job-sharing arrangement provides flexibility, but it also requires careful
coordination. The Department’s Family Liaison Office publishes guidelines for job sharing that
stress holding crossover sessions and building successful partnerships. To maximize coverage in
CLO, Embassy Gaborone’s two CLO coordinators overlap briefly once a week, when both
attend the country team meeting. Otherwise, they share most of their information by email. It can
be difficult to organize and follow through on events with so little shared time in the office.

          Informal Recommendation 33: Embassy Gaborone should schedule the community
          liaison coordinators’ work hours so they overlap for an hour each full work day.

Health Unit

        Embassy Gaborone’s health unit is staffed by two full-time, locally hired registered
nurses, who provide patient care and carry out all the administrative tasks often performed
elsewhere by office administrators. They are on call 24 hours a day, 7 days a week. The regional
medical office in Pretoria oversees the Gaborone operation, writes all prescriptions based on
input from the nurses, and approves all medical evacuations, usually to South Africa.

         The health unit is located in the same neighborhood as many of the embassy residences,
which makes it accessible for families. Although the unit’s waiting room and staff offices are
welcoming and private, the examination room is cramped and not stretcher accessible. Many of
the unit’s supplies are stored outside the unit itself, due to space constraints. Although this space
is not ideal, the staff is able to work around the deficiencies in most cases.

       The health unit staff maintains patient files and secures controlled drugs in accordance
with 16 FAM 721.

                                          30
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Recreational Facilities

        The embassy owns a large plot of land in a residential neighborhood that houses the
health unit and recreational facilities, including a tennis court, thatched-roof open area for
picnics and community get-togethers, and a barbeque.

        Separate from that location and adjacent to the health unit is a gymnasium with bicycles,
treadmills, and weights. The sign-in sheet attests to the large number of embassy staff who use it
daily. There is no sign indicating that the U.S. embassy is not liable for the risk of injury and that
no one is on duty to ensure proper use of equipment. In addition, the OIG team noted a dangling,
exposed wire over the door.

          Informal Recommendation 34: Embassy Gaborone should inspect the gymnasium,
          safeguard all wiring, minimize potential safety hazards, and determine the liability for
          unsupervised gymnasium usage.

Schools

          U.S. direct-hire dependents attend three different schools. The Office of Overseas
Schools provides a yearly $25,000 grant for the (b)(5)(b)(6)                      Between 2008
and 2011, it also provided a total of $84,700 1 for (b)(5)(b)(6)                     soft target
security upgrades projects and $102,000 for the Northside Elementary School’s security
upgrades. The(b)(5)(b)(6)                        does not receive Department grants but received
U.S. Agency for International Development grants to build science laboratories. All three
schools have succeeded in placing their students in colleges throughout the United States,
although the (b)(5)(b)(6)

          Parents’ satisfaction with the educational options varies, because none of the schools is
entirely comparable to U.S. public or private institutions. Children with learning and adjustment
challenges have difficulties in all three programs.

Equal Employment Opportunity

        Embassy Gaborone has the essential ingredients of a good EEO program: a trained EEO
counselor, two locally employed EEO liaisons, and a large bulletin board with materials neatly
and prominently displayed in the chancery. However, EEO program promotional materials are
less evident in several embassy annexes, including two remote sites between 4 and 5 hours away
from the capital. Even though there have been few inquiries about EEO issues during the past 6
years and no formal cases, it is important for the counselor and the locally employed liaisons to
provide periodic training at all the sites and to ensure that updated materials are prominently
displayed wherever there are U.S. Government employees.




1
 Department regulation 2 FAM 600, Assistance to Schools Abroad and Soft Target Program:
Overseas School Security Upgrades (State 00154115, dated November 2007).
                                             31
                           SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 35: Embassy Gaborone should conduct Equal
Employment Opportunity training at least every other year at each site under chief of
mission authority and should display equivalent informational materials at all sites.




                               32
                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management Controls
        The 2010 annual chief of mission management controls certification identified no
material weaknesses that would rise to the level of that review. The management section has
resolved some management controls issues, including setting up repayment plans for outstanding
travel advances, improving fuel controls, and hiring a travel clerk to better manage travel. Some
issues remain, as discussed below.

Human Resources

        The HR office does not have any method of tracking the incoming tasks and requests or
for monitoring the amount of time it takes to complete its work. The HR clerks use a number of
different spreadsheets to track performance evaluations, computer-aided job evaluations,
training, time and attendance, and other HR functions. However, the spreadsheets do not
accurately reflect the pending requests and completed tasks, and they do not help employees
meet the deadlines. Furthermore, there are no consequences for submitting performance
evaluations and other work late. As a result, a number of performance evaluations are overdue,
there is confusion about which position descriptions have been submitted to the office for
evaluation, and time and attendance data are frequently entered into the system after the fact as
revisions. Furthermore, the HR office is unable to evaluate its own workload or determine
whether tasks are being efficiently distributed among the employees.

Recommendation 17: Embassy Gaborone should implement a requests and workload tracking
system for the human resources office to enable that unit to monitors all significant tasks, from
the initial request through to completion and feedback, and apply standards of performance for
all its employees. (Action: Embassy Gaborone)

Property Management

       The OIG team conducted a spot check of nonexpendable property in the warehouse and
found discrepancies between the physical inventory count and the property records. The property
management supervisor was unable to find the source of the discrepancy, which indicates a
weakness in the controls over warehouse property.

Recommendation 18: Embassy Gaborone should resolve the discrepancies found in the
warehouse inspection and implement procedures to correct the source of the error in the
management controls. (Action: Embassy Gaborone)

       The OIG team was unable to conduct a spot check of the expendable property supply
room, because the property management unit was unable to produce a dependable report of the
property records.

          Informal Recommendation 36: Embassy Gaborone should provide training to the
          property management staff and implement procedures for regular spot checks of the
          inventory.


                                          33
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        Embassy Gaborone recorded a shortage of more than $50,000 of nonexpendable property
in the 2010 annual inventory. However, the accountable property officer did not prepare a
disposal report for the property management officer, as required by 14 FAM 416.5-1. The
property management supervisor continued to include the missing property in the general
inventory, although some items have been identified as displaced property in the meantime. By
delaying the review of missing property, the property management officer did not determine the
potential financial responsibility of employees or identify the procedures that needed correction
to prevent a shortage in the future. The annual inventory process for 2011 is scheduled to begin
after the end of the inspection.

Recommendation 19: Embassy Gaborone should implement annual inventory procedures to
immediately report missing, damaged, or destroyed property to the property management officer.
(Action: Embassy Gaborone)

        The receiving clerk accepts deliveries at a number of locations. The procurement section
also arranges to have some goods delivered directly to the requesting offices. In some cases, this
practice lead the financial management office to pay vendors for goods without receiving reports,
instead using only the invoices. According to regulations (14 FAH-1 H-312), embassies should
centralize the receipt of goods in order to exercise greater control of U.S. Government property.

Recommendation 20: Embassy Gaborone should identify a central receiving location and
reduce the delivery of goods to other locations. (Action: Embassy Gaborone)

       The OIG team also found a number of other procurement records marked “fully
received” (and some were already paid for) that did not have associated receiving reports. The
GSO could not explain why the purchase orders lacked receiving reports. The GSO and financial
management officer had implemented new procedures just before the inspection, but since those
procedures were not drafted in response to this specific issue, they may not prevent the problem
from recurring.

Recommendation 21: Embassy Gaborone should review the procurement orders marked as
fully received without an associated receiving report, determine the cause of the error, and
implement procedures to avoid a recurrence of the problem. (Action: Embassy Gaborone)

         In response to the discovery of fraud at CDC, the embassy agreed to take control over
CDC’s warehouse operation, and CDC recently conducted a fresh inventory of its property,
during which it identified a large amount of stored property for disposal or auction. The embassy
plans to move the transferred property to the embassy warehouse by April 30, 2011, when the
first of the CDC storage leases will expire. Using CDC’s new inventory, the embassy will
conduct a second inventory as it brings the CDC property into the warehouse, which will allow
staff to conduct a reconciliation and exclude any missing property from the ICASS warehouse
inventory.

Recommendation 22: Embassy Gaborone should complete an inventory of all items transferred
from the Centers for Disease Control and Prevention into the Department of State warehouse.
(Action: Embassy Gaborone)

                                         34
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Official Vehicles

         The motor pool supervisor is using the Integrated Logistics Management System and the
vehicle registration management software to maintain data for the Department’s required reports
on official vehicles. However, since the supervisor and the dispatcher are not entering all
necessary data into the system, there are a number of errors in the vehicle records. For example,
the recorded odometer values are significantly different from the actual readings in the vehicles.
Part of the problem may be due to the supervisor and dispatcher not being fully trained on the
software system before they were given the responsibility for maintaining these records. In
addition, the embassy does not require drivers to enter their trip data into the vehicle registration
management system during their down time. However, there are also a number of procedural
gaps in the unit’s record keeping. For example, “self-drive” and “other authorized use” trip
tickets and fuel records are not entered into the vehicle registration management system. As a
result, any reports generated from these databases will be inaccurate, making it impossible for
the motor vehicle manager to properly oversee the use of official vehicles.

Recommendation 23: Embassy Gaborone should fully train all motor pool drivers on how to
use the electronic vehicle record keeping system. (Action: Embassy Gaborone)

Recommendation 24: Embassy Gaborone should revise the procedures for maintaining official
vehicle records in the Department of State’s software suite to include recording all data on all
vehicle usage, including “self-drive” and “other authorized use” trip tickets. (Action: Embassy
Gaborone)

        The general services office does not have an adequate system of billing for fuel and other
authorized use of vehicles. The OIG team could not reconcile the motor pool records for other
authorized use with the billing and receipts records in the financial management section. Part of
this problem is because the unit prepares bills irregularly, and charges are often consolidated
across many months. There are a number of outstanding bills for other authorized use (over
$1,372) and fuel (over $5,249). Neither the general services office nor the financial management
office has adequate measures in place for collections enforcement.

Recommendation 25: Embassy Gaborone should revise the billing and collections procedures
to facilitate the timely collection of payments due. (Action: Embassy Gaborone)




                                          35
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Gaborone, in coordination with the Bureau of Human
Resources, should require the chief of the political/economic section to receive training and
obtain a grants warrant in order to sign paperwork for the grants the section manages. (Action:
Embassy Gaborone, in coordination with DGHR)

Recommendation 2: Embassy Gaborone should arrange for the coordinator of the
Ambassador’s Self-Help Fund to take online training in grants management from the Foreign
Service Institute. (Action: Embassy Gaborone)

Recommendation 3: Embassy Gaborone should determine the appropriate structure for the
public affairs section and update the position descriptions of the local staff accordingly. (Action:
Embassy Gaborone)

Recommendation 4: Embassy Gaborone should provide supervisory skills training for the
public affairs section’s locally employed supervisors. (Action: Embassy Gaborone)

Recommendation 5: Embassy Gaborone should request that the Bureau of African Affairs
send a visiting financial specialist from its roving team to reinforce earlier recommendations and
help the staff to use the Department of State’s Integrated Logistics Management System.
(Action: Embassy Gaborone)

Recommendation 6: Embassy Gaborone, in coordination with the Bureau of Human
Resources and the Bureau of Administration, should obtain and keep on file a new health
insurance contract for the local employees. (Action: Embassy Gaborone, in coordination with
DGHR and A)

Recommendation 7: Embassy Gaborone should develop a mission-wide training plan that
includes procedures for prioritizing training requests. (Action: Embassy Gaborone)

Recommendation 8: Embassy Gaborone should prepare a written finding of the circumstances
that justify the other authorized use of official vehicles, including home-to-office transportation
and transport of children to school. (Action: Embassy Gaborone)

Recommendation 9: Embassy Gaborone should require the drivers of official vehicles to
verbally inform passengers of the seat belt requirement and then wait for them to comply before
moving the vehicle. (Action: Embassy Gaborone)

Recommendation 10: Embassy Gaborone should include all of the motor vehicle safety
management program’s requirements for drivers in the mission vehicle policy. (Action: Embassy
Gaborone)

Recommendation 11: Embassy Gaborone should implement procedures for routine
maintenance and repair of motor pool vehicles. (Action: Embassy Gaborone)



                                          36
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 12: Embassy Gaborone should formalize the reorganization of the facilities
management unit, prepare and classify all position descriptions, and advertise revised positions
as necessary. (Action: Embassy Gaborone)

Recommendation 13: The Bureau of Information Resource Management, in coordination with
the Diplomatic Telecommunications Program Office and Embassy Gaborone, should resolve the
problems with the wide area network. (Action: IRM, in coordination with DTSPO and Embassy
Gaborone)

Recommendation 14: Embassy Gaborone should assign group permissions to electronic
folders. (Action: Embassy Gaborone)

Recommendation 15: Embassy Gaborone should repair, supplement, or replace the server
room air conditioning units. (Action: Embassy Gaborone)

Recommendation 16: (b) (5)



Recommendation 17: Embassy Gaborone should implement a requests and workload tracking
system for the human resources office to enable that unit to monitors all significant tasks, from
the initial request through to completion and feedback, and apply standards of performance for
all its employees. (Action: Embassy Gaborone)

Recommendation 18: Embassy Gaborone should resolve the discrepancies found in the
warehouse inspection and implement procedures to correct the source of the error in the
management controls. (Action: Embassy Gaborone)

Recommendation 19: Embassy Gaborone should implement annual inventory procedures to
immediately report missing, damaged, or destroyed property to the property management officer.
(Action: Embassy Gaborone)

Recommendation 20: Embassy Gaborone should identify a central receiving location and
reduce the delivery of goods to other locations. (Action: Embassy Gaborone)

Recommendation 21: Embassy Gaborone should review the procurement orders marked as
fully received without an associated receiving report, determine the cause of the error, and
implement procedures to avoid a recurrence of the problem. (Action: Embassy Gaborone)

Recommendation 22: Embassy Gaborone should complete an inventory of all items
transferred from the Centers for Disease Control and Prevention into the Department of State
warehouse. (Action: Embassy Gaborone)

Recommendation 23: Embassy Gaborone should fully train all motor pool drivers on how to
use the electronic vehicle record keeping system. (Action: Embassy Gaborone)

Recommendation 24: Embassy Gaborone should revise the procedures for maintaining
official vehicle records in the Department of State’s software suite to include recording all data

                                          37
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

on all vehicle usage, including “self-drive” and “other authorized use” trip tickets. (Action:
Embassy Gaborone)

Recommendation 25: Embassy Gaborone should revise the billing and collections procedures
to facilitate the timely collection of payments due. (Action: Embassy Gaborone)




                                          38
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Gaborone should require that the President’s
Emergency Plan for AIDS Relief’s upcoming staff review include recommendations on staff
size, costs, and skill sets.

Informal Recommendation 2: Embassy Gaborone should require the President’s Emergency
Plan for AIDS Relief coordinator to submit a written report to the Ambassador outlining
management structures and processes in place to guard against waste, fraud, and mismanagement
in the use of program funds.

Informal Recommendation 3: Embassy Gaborone should either provide the President’s
Emergency Plan for AIDS Relief coordinator with a monthly accounting of President’s
Emergency Plan for AIDS Relief funds managed by the embassy, or arrange direct access to
funding reports through the Department of State’s consolidated overseas accountability support
toolbox software.

Informal Recommendation 4: Embassy Gaborone should transfer responsibility for
President’s Emergency Plan for AIDS Relief reporting from the regional environment and health
office to the political/economic section.

Informal Recommendation 5: Embassy Gaborone should accelerate planning for the move of
the public affairs section and for the programs and events to be held there during the first weeks
and months of operation.

Informal Recommendation 6: Embassy Gaborone should determine what kind of motor pool
support is appropriate for the public affairs section in its new location.

Informal Recommendation 7: Embassy Gaborone should review the current staffing structure
in the public affairs section to determine whether any existing position could be reprogrammed
as an educational adviser.

Informal Recommendation 8: Embassy Gaborone should consult U.S. embassies in the region
and the regional educational advising coordinator regarding short- and long-term options for
providing educational advising services in Botswana.

Informal Recommendation 9: Embassy Gaborone should increase the use of fixed obligation
grants for all grants under $25,000.

Informal Recommendation 10: Embassy Botswana should analyze recent nonimmigrant visa
applications for travel to purchase used vehicles and should work with the Office of Fraud

                                          39
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Prevention Programs to determine whether the applications provide useful information for
ongoing law enforcement efforts.

Informal Recommendation 11: Embassy Gaborone should require the alternate cashier in the
financial management section to perform cashiering duties 1 week each month.

Informal Recommendation 12: Embassy Gaborone should issue a management notice that
details requirements to repay travel advances and steps to take once the balance is fully paid.

Informal Recommendation 13: Embassy Gaborone should request that the Bureau of African
Affairs provide a temporary duty human resources officer until the replacement officer can arrive
in summer 2011.

Informal Recommendation 14: Embassy Gaborone should provide guidance and assistance to
supervisors as they evaluate and improve their units’ employment structures.

Informal Recommendation 15: Embassy Gaborone should revise the notification system for
local employee performance evaluations and implement stronger policy enforcement measures.

Informal Recommendation 16: Embassy Gaborone should clear all stored property from the
floor of the warehouse and implement procedures to prevent this situation from recurring in the
future.

Informal Recommendation 17: Embassy Gaborone should provide ventilation in the
warehouse.

Informal Recommendation 18: Embassy Gaborone should require vendors to weigh their
trucks before and after the delivery of all incoming shipments.

Informal Recommendation 19: Embassy Gaborone should issue a management notice
detailing the importance of confirming funds availability before making purchases on blanket
purchase agreements.

Informal Recommendation 20: Embassy Gaborone should discontinue allowing local staff and
motor pool employees to pay personal bills through the embassy.

Informal Recommendation 21: Embassy Gaborone should compete and award a blanket
purchase agreement for the purchase of common appliances and equipment for U.S.
Government-owned properties to promote standardization.

Informal Recommendation 22: Embassy Gaborone should request the International
Cooperative Administrative Support Services council’s approval for four additional positions in
the facilities management unit.

Informal Recommendation 23: Embassy Gaborone should coordinate all plans for fit-out and
space allocation for the new public affairs section offices.

Informal Recommendation 24: Embassy Gaborone should correct all deficiencies noted in the
Safety, Health, and Environmental Management report.
                                           40
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 25: Embassy Gaborone should establish a Diplomatic Post Office.

Informal Recommendation 26: Embassy Gaborone should purge all personal photo files from
the server.

Informal Recommendation 27: Embassy Gaborone should provide a BlackBerry cell phone to
the information systems center for support services.

Informal Recommendation 28: Embassy Gaborone should conduct weekly staff meetings with
the information management locally employed and American staff.

Informal Recommendation 29: Embassy Gaborone should provide mandatory and Department
of State-funded training for the information systems center staff.

Informal Recommendation 30: Embassy Gaborone should conduct a wage survey for
information management personnel.

Informal Recommendation 31: Embassy Gaborone should require that the information
management section perform all required information systems security officer duties.

Informal Recommendation 32: (b) (5)


Informal Recommendation 33: Embassy Gaborone should schedule the community liaison
coordinators’ work hours so they overlap for an hour each full work day.

Informal Recommendation 34: Embassy Gaborone should inspect the gymnasium, safeguard
all wiring, minimize potential safety hazards, and determine the liability for unsupervised
gymnasium usage.

Informal Recommendation 35: Embassy Gaborone should conduct Equal Employment
Opportunity training at least every other year at each site under chief of mission authority and
should display equivalent informational materials at all sites.

Informal Recommendation 36: Embassy Gaborone should provide training to the property
management staff and implement procedures for regular spot checks of the inventory.




                                          41
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials

                                                             Name      Arrival Date
Ambassador                                           Stephen Nolan            09/08
Deputy Chief of Mission                              Scott Hamilton           08/09
Chiefs of Sections:
  Management                                             Steven Toy          09/09
  Consular                                          Stephen Wilger           09/10
  Political/Economic                                Heather Merritt          09/08
  Public Affairs                                       John Warner           10/10
  REHO                                           Victoria O’Connell          01/10
  Regional Security                                   John Krajicek          08/08
Other Agencies:
  Department of Defense                                  Josh Reitz          08/10
  USAID                                               Joan La Rosa           08/07
  CDC                                             Kathleen Toomey            01/11
  Department of Homeland                                                     11/09
  Security                                 James (J.O.) Smith(ILEA)
  Treasury Department                                     James Day          06/10
  Peace Corps                                        Seana Lammers           02/10
  IBB                                               George O. Miller         12/07




                                       42
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations

CDC             Centers for Disease Control and Prevention
CLO             Community liaison office
DCM             Deputy chief of mission
EEO             Equal Employment Opportunity
ELO             Entry-level officer
GSO             General services officer
HR              Human resources
ICASS           International Cooperative Administrative Support Services
MSRP            Mission Strategic and Resource Plan
PAO             Public affairs officer
PAS             Public affairs section
PEPFAR          President’s Emergency Plan for AIDS Relief
SADC            Southern Africa Development Community
SHEM            Safety, Health, and Environmental Management
USAID           U.S. Agency for International Development




                            43
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
         Arlington, VA 22219



   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




   SENSITIVE BUT UNCLASSIFIED
                           1
